BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief for the Ohio Justice & Policy Center as
Amicus Curiae in Support of Petitioner in 20-5243,
Warren Keith Henness v. Mike De Wine, et al., was sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below, this 20th day of
August, 2020:
Jean-Claude Andre
Sidley Austin LLP
555 W. Fifth Street
Suite 4000
Los Angeles, CA 90013
(213) 896-6000
jcandre@sidley.com
Counsel for Petitioner
Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
(614) 466-8980
benjamin.flowers@ohioattorneygeneral.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Aaron M. Herzig
Counsel of Record
Anna N. Greve
Taft Stettinius & Hollister LLP
425 Walnut Street, Suite 1800
Cincinnati, Ohio 45202
(513) 357-8768
aherzig@taftlaw.com
Mark Vander Laan
Ohio Justice & Policy Center
215 East 9th Street
Suite 601
Cincinnati, Ohio 45202
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 20, 2020.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~

f;l&if Jo

{Jtwrj

Notary Public

,i

oQc}o

~

,;

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohlci
My Commission Expires
February ·14; 2023

